      Department of Homeland Security





      Transportation Security Administration Information 

      Technology Management Progress and Challenges 





OIG-13-101                                         June 2013

                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security
                                Washington, DC 20528 / www.oig.dhs.gov



                                     June 24, 2013

MEMORANDUM FOR:              John W. Halinski
                             Deputy Administrator
                             Transportation Security Administration

FROM:                        Frank Deffer
                             Assistant Inspector General
                             Office of Information Technology Audits

SUBJECT:                     Transportation Security Administration Information
                             Technology Management Progress and Challenges


Attached for your action is our final report, Transportation Security Administration
Information Technology Management Progress and Challenges. We incorporated the
formal comments from the Transportation Security Administration (TSA).

The report contains five recommendations aimed at improving TSA’s information
technology management. Your office concurred with the recommendations. As prescribed
by the Department of Homeland Security Directive 077-01, Follow-Up and Resolutions for
Office of Inspector General Report Recommendations, within 90 days of the date of this
memorandum, please provide our office with a written response that includes your
(1) corrective action plan and (2) target completion date for each recommendation. Also,
please include responsible parties and any other supporting documentation necessary to
inform us about the current status of the recommendation. Until your response is received
and evaluated, the recommendations will be considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing copies
of our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security.

Please call me with any questions, or your staff may contact Richard Harsche, Division
Director, Information Technology Audits, at (202) 254-5448.

Attachment
                                         OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security



   Table of Contents
   Executive Summary............................................................................................................. 1


   Background ......................................................................................................................... 2


   Results of Audit ................................................................................................................... 6


              IT Management Capabilities Established ................................................................ 6

              Recommendations ................................................................................................ 14

              Management Comments and OIG Analysis .......................................................... 14


              Support of Mission Needs..................................................................................... 16

              Recommendations ................................................................................................ 20

              Management Comments and OIG Analysis .......................................................... 21



   Appendixes
              Appendix A:          Objectives, Scope, and Methodology ............................................ 23

              Appendix B:          Management Comments to the Draft Report ............................... 25

              Appendix C:          Definition of Information Technology ........................................... 28

              Appendix D:          Major Contributors to This Report ................................................ 29

              Appendix E:          Report Distribution ........................................................................ 30


   Abbreviations
              AIT                   Advanced Imaging Technology
              CIO                   Chief Information Officer
              DHS                   Department of Homeland Security
              EDS                   Explosives Detection System
              eTAS                  Electronic Time, Attendance, and Scheduling
              FAMS                  Federal Air Marshal Service
              FY                    fiscal year
              GAO                   Government Accountability Office


www.oig.dhs.gov                                                                                                                 OIG-13-101
                     OFFICE OF INSPECTOR GENERAL
                        Department of Homeland Security



           IT     information technology
           ITAR   Information Technology Acquisition Review
           MD     Management Directive
           OIG    Office of Inspector General
           OIT    Office of Information Technology
           OMB    Office of Management and Budget
           SELC   systems engineering life cycle
           TSA    Transportation Security Administration




www.oig.dhs.gov                                               OIG-13-101
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security



   Executive Summary
   Information technology plays a critical role in enabling the Transportation Security
   Administration (TSA) to accomplish its mission. In 2007, we reported that TSA did not
   manage and apply information technology effectively to support accomplishment of its
   mission objectives. We conducted a follow-up audit to determine TSA’s progress in
   establishing key information technology management capabilities to support mission
   needs. Appendix A describes the audit’s scope and methodology.

   The TSA Chief Information Officer has established key information technology
   management capabilities to support TSA’s mission. Specifically, the Chief Information
   Officer updated the information technology strategic plan, implemented a systems
   engineering life cycle process to manage information technology programs,
   implemented information technology acquisition review processes, and developed an
   enterprise architecture. Not all information technology procurements, however, have
   gone through the information technology acquisition review process because they were
   not categorized as information technology procurements. As a result, there is little
   assurance that all information technology investments are aligned with the Chief
   Information Officer’s strategy or TSA’s future information technology mission needs.

   The TSA Chief Information Officer faces challenges in ensuring that the information
   technology environment fully supports TSA’s mission needs. Specifically, TSA’s
   information technology systems do not provide the full functionality needed to support
   its mission due to challenges with TSA’s requirements gathering process. As a result,
   staff created manual workarounds or developed local systems to accomplish their
   mission. In addition, information technology support roles are not well defined or
   communicated, and the number of information technology support staff is not sufficient
   at certain field sites. Some field sites detailed employees from operational areas to fill
   in gaps in information technology support, which reduced the number of staff available
   to serve at security checkpoints and may hinder TSA’s ability to carry out its mission.

   We made five recommendations to the Deputy Administrator, Transportation Security
   Administration, to ensure that the Department’s definition of information technology is
   applied for all acquisitions; develop and implement a process to ensure that all
   information technology acquisitions go through information technology acquisition
   review; develop and implement a process to capture information technology
   requirements in the field; communicate the IT specialist role, as contractually defined,
   to both IT specialists and to the user community; and develop and implement a process
   to provide sufficient IT support in airports and operational sites in the field.


www.oig.dhs.gov                                1                                       OIG-13-101
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security



   Background
   TSA was created in the wake of September 11, 2001, to maintain the security of
   transportation systems and the traveling public. By the end of 2002, TSA had deployed
   a security operations workforce and assumed 100 percent of all airport screening
   responsibilities. Originally part of the Department of Transportation, transportation
   security functions moved to the Department of Homeland Security (DHS) in March 2003.

   TSA’s mission is to strengthen the security of the Nation’s transportation systems while
   ensuring the freedom of movement for people and commerce. To accomplish its
   mission, TSA’s nearly 50,000 Transportation Security Officers screen more than
   1.7 million passengers each day at more than 450 airports nationwide. TSA uses
   approximately 2,800 Behavior Detection Officers at airports across the country, and
   thousands of Federal Air Marshals are deployed every day on domestic and
   international flights. TSA has more than 400 explosives specialists in aviation and other
   transportation environments. To date, TSA has deployed more than 800 Advanced
   Imaging Technology machines at airports, leading to the detection of prohibited, illegal,
   or dangerous items. In fiscal year (FY) 2013, TSA’s budget was approximately
   $7.6 billion, which represents 13 percent of DHS’ overall budget of approximately
   $59 billion.

   Information technology (IT) systems play a critical role in enabling TSA to accomplish its
   mission. TSA’s Office of Information Technology (OIT) is responsible for developing and
   managing IT initiatives and policies for TSA’s IT requirements. OIT supports
   approximately 70,000 government and contractor personnel, working at more than 450
   airports and at 22 international locations, who use approximately 33,000 computers,
   26,000 phones, 4,000 switches, 750 routers, and 90,000 email accounts. As of October
   2012, OIT employed 1,957 staff, including 230 Federal employees and 1,727 contractors.
   In FY 2013, TSA requested an IT budget of approximately $417.2 million.

   To plan and manage TSA’s critical IT environment, OIT is organized into five offices: the
   Senior Technical Advisor and DHS Liaison Office, the Business Management Office,
   Federal Air Marshal Service (FAMS) IT, IT Strategy and Innovation, and IT Operations, as
   shown in figure 1.




www.oig.dhs.gov                                2                                       OIG-13-101
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security




                  Figure 1. TSA’s OIT Organizational Structure as of June 2012

   The Senior Technical Advisor and DHS Liaison Office is responsible for defining the next
   generation of TSA and DHS target IT capabilities, based on mission needs. The Business
   Management Office ensures that IT is appropriately aligned with OIT, TSA, and DHS
   goals and priorities. FAMS IT manages service-wide planning, development, acquisition,
   testing, integration, installation, security, use, and evaluation of its IT systems, facilities,
   services, and procedures.

   IT Strategy and Innovation provides strategic and enterprise services in support of TSA’s
   IT programs. Within IT Strategy and Innovation, the Mission Engagement Division builds
   and strengthens customer-partner relationships between OIT and TSA mission and
   support offices. The Strategy and Enterprise Management Division maintains the TSA IT
   strategic plan, creates the OIT annual report, and develops the IT roadmap strategy
   from the current, as-is to the future, to-be TSA enterprise environment. Finally, the
   Enterprise Architecture Division provides vision and expertise in enterprise architecture
   and enterprise data management services. 1

   IT Operations provides IT support to more than 70,000 users across the agency and
   manages IT projects. IT Operations is responsible for 24x7 operations centers, including
   the Security Operations Center, Network Operations Center, and Help Desk Services.
   Within IT Operations, the End User Services Division provides office automation

   1
    Enterprise architecture is a management practice designed to maximize the contribution of an agency’s
   resources, IT investments, and system development activities to achieve mission performance goals.

www.oig.dhs.gov                                       3                                            OIG-13-101
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security



   services, desk side support, and customer-focused IT project management to more than
   3,000 users. This division also serves as the primary customer interface for IT products
   and services for more than 120 Federal Security Directors and their more than 50,000
   staff at domestic and international locations. Also under IT Operations, the Applications
   Development Division provides enterprise-wide software solutions, and the Operations
   and Engineering Division provides project engineering services for all new IT services.
   Finally, the Information Assurance and Cyber Security Division coordinates audits on TSA
   internal systems, TSA contractor-managed systems, and airports, and is responsible for
   the communications and outreach activities related to cyber security for the agency.

   OIT is responsible for developing and implementing enterprise-wide common
   applications and systems resulting in efficient, cost-effective, secure, and interoperable
   solutions to customer requirements. OIT manages some systems, but other TSA offices
   outside of OIT, including the Office of Security Capabilities and the Office of Intelligence
   and Analysis, manage other systems. TSA’s major systems include the following:

   Major Systems Managed by OIT
          •	 Information Technology Infrastructure Program – This program provides a
             communication and data processing platform that is used by all headquarters
             and TSA field elements to perform their mission of providing transportation
             security. The program includes email; database support; personal device
             communications; software and hardware refreshment; and hotline,
             technical, and security support.
          •	 Performance Management Information System – This system is an
             enterprise-level analytical tool that integrates data from multiple sources to
             collect and report on a variety of TSA performance measures in order to
             monitor TSA’s progress toward operational goals.
          •	 TSA Operating Platform – This platform is a collection of shared IT
             components and services that support mission critical applications across
             TSA. The platform enables a streamlined provisioning process to acquire
             secure and reliable information and applications to meet legislative
             mandates and deliver integrated database and network resources.
          •	 FAMS Mission Scheduling and Notification System – This system is the
             technology interface between FAMS and the airline industry and provides a
             variety of scheduling tools to help FAMS execute its mission.

   Major System Managed by the Office of Security Capabilities
          •	 Security Technology Integrated Program – This program is an agency-wide
             data management system that provides a centralized focal point connecting


www.oig.dhs.gov                                 4	                                       OIG-13-101
                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security



                  passenger and baggage screening security technologies to one network to
                  address data, threat response, and equipment challenges.

   Major Systems Managed by the Office of Intelligence and Analysis
          •	 Secure Flight – Secure Flight is a behind-the-scenes program that enhances
             the security of domestic and international commercial air travel through the
             use of improved watch list matching.
          •	 Technology Infrastructure Modernization Program – The purpose of this
             program is to provide a robust and integrated enrollment, vetting, and
             credentialing system capable of providing services to TSA while meeting the
             anticipated rate of growth of the transportation worker population.

   Effective management of IT systems is important to ensure that mission operations are
   supported. Previous audits have identified challenges with TSA’s IT infrastructure and
   management. For example, in 2007, we reported that TSA’s IT infrastructure had
   limited system integration and data sharing and had perpetuated inefficient manual
   work processes. 2 Additionally, because of limitations with authority and a need for
   standard IT governance policies across TSA, the agency’s Chief Information Officer (CIO)
   faced significant challenges in conducting agency-wide IT planning and investment
   management. Insufficient OIT staff also impeded the CIO’s ability to manage the IT
   infrastructure and support new technology requirements.

   To address those challenges, we recommended that the Assistant Administrator for TSA
   strengthen component IT management by empowering the CIO with agency-wide IT
   budget and investment review authority; develop a consolidated strategic planning
   approach; complete and implement an enterprise architecture; establish and
   communicate guidelines and procedures for acquiring, developing, and managing IT
   solutions in a consistent, integrated, and efficient manner; and apply adequate staff
   resources to address IT needs and provide support to TSA operations agency-wide. In
   response, TSA advised the DHS Office of the Inspector General (OIG) that it had updated
   the IT strategic plan, developed an enterprise architecture system and repository,
   revised its investment review process, and conducted an analysis of its organizational
   structure and staff. Based on TSA’s actions, we closed the five recommendations. As
   part of this audit, we revisited these areas to determine TSA’s progress in establishing
   key IT management capabilities to support mission needs.



   2
    Information Technology Management Needs to Be Strengthened at the Transportation Security
   Administration, OIG-08-07, October 2007.

www.oig.dhs.gov                                     5	                                          OIG-13-101
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security



   Results of Audit
           IT Management Capabilities Established

           The CIO has taken actions to establish key IT management capabilities to support
           TSA’s mission. Specifically, the CIO updated its IT strategic plan to guide OIT in
           supporting TSA and Department mission goals. In addition, the CIO
           implemented a systems engineering life cycle (SELC) process to manage IT
           programs. The CIO also implemented IT Acquisition Review (ITAR) processes and
           developed an enterprise architecture. These actions can help support effective
           IT management and ensure that IT investments provide effective support for
           TSA’s transportation security mission.

           Strategic Planning

           The Government Performance and Results Act of 1993 holds Federal agencies
           responsible for strategic planning to ensure efficient and effective operations
           and use of resources to achieve mission results. 3 Additionally, Office of
           Management and Budget (OMB) Circular A-130, as revised, instructs agency CIOs
           to create strategic plans that demonstrate how information resources will be
           used to improve the productivity, efficiency, and effectiveness of government
           programs. 4 DHS Management Directive (MD) 0007.1 requires component CIOs
           to develop and implement an IT strategic plan that clearly defines how IT
           supports an agency’s mission and drives investment decisions, guiding the
           agency toward its goals and priorities. 5

           The TSA CIO has an up-to-date strategic plan that is in line with Federal
           requirements and Department guidance. Specifically, the CIO developed the TSA
           IT Strategic Plan, FY 2012–2016 in October 2011. The plan identifies an
           actionable and measurable IT strategy that articulates the CIO’s vision, mission,
           goals, and objectives through FY 2016. Table 1 shows the five goals included in
           the plan.




   3
     Public Law 103-62, Government Performance and Results Act of 1993, August 3, 1993.

   4
     OMB Circular A-130, Management of Federal Information Resources, Transmittal Memorandum #4,

   November 28, 2000.

   5
     DHS MD 0007.1, Information Technology Integration and Management, March 15, 2007.


www.oig.dhs.gov                                    6                                           OIG-13-101
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security



                                      Table 1. TSA OIT Strategic Goals

                                     TSA OIT FY 2012-16 Strategic Goals
            Goal 1: Deliver IT services that are aligned to TSA’s mission and business needs through
            collaboration and implementation of best practices
            Goal 2: Provide an information environment that fosters secure collaborative
            information sharing among TSA and its stakeholder organizations
            Goal 3: Evolve the IT infrastructure into a cohesive architecture to optimize service
            delivery
            Goal 4: Strengthen the cyber security and information assurance capability to ensure
            TSA assets and operations are protected
            Goal 5: Develop and implement a comprehensive approach to ensure excellence of IT
            delivery through recruitment, development, retention, and recognition

           To accomplish these goals, the TSA CIO has established specific objectives with
           associated key performance metrics. For example, to meet the goal to develop
           and implement a comprehensive approach to ensure excellence of IT delivery
           through recruitment, development, retention, and recognition, the plan
           identifies two objectives—to provide comprehensive and effective IT human
           capital management, and to establish a career path framework aligned with IT
           competencies that support succession management. For each of these
           objectives, the plan defines key performance metrics that will measure progress
           toward achieving the goal. For example, the implementation of an integrated
           TSA IT human capital plan and the development of a career path framework for
           IT learning and development will contribute to TSA OIT’s goal to develop an
           approach to ensure excellence of IT delivery.

           The TSA IT Strategic Plan, FY 2012–2016 aligns with the goals identified in the
           DHS and TSA strategic plans. The plan is also aligned with the DHS IT Strategic
           Plan 2011–2015 to ensure that TSA OIT supports the DHS CIO’s department-wide
           IT goals. Table 2 shows the alignment of OIT goals with DHS and TSA goals.




www.oig.dhs.gov                                   7                                          OIG-13-101
                                    OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security



                   Table 2. Alignment of TSA OIT Goals with TSA, DHS, and DHS IT Goals

                                  Alignment of TSA OIT Goals with TSA, DHS, and DHS IT Goals
                                     TSA OIT                                     Goal 1   Goal 2   Goal 3   Goal 4   Goal 5
                      Goal 1: Risk-based security                                                          
             TSA      Goal 2: Workforce engagement                                                                   
                      Goal 3: Organizational efficiency                                            
                      Goal 1: Prevent terrorism and enhance security                                       
                      Goal 2: Secure and manage United States borders                     
            DHS       Goal 3: Enforce and administer immigration laws             
                      Goal 4: Safeguard and secure cyberspace                                              
                      Goal 5: Ensure resilience to disasters                                      
                      Goal 1: Establish secure IT services and capabilities to
                      protect the homeland and enhance our Nation’s               
                      preparedness, mitigation, and recovery capabilities
                      Goal 2: Improve secure and trusted internal and
                      external information sharing                                                         
                      Goal 3: Improve transparency, accountability, and
            DHS IT    efficiencies of services and programs through                                
                      effective governance and enterprise architecture
                      Goal 4: Develop and implement a comprehensive
                      approach to IT employee recruitment, development,
                      retention, and recognition to ensure excellence in IT                                          
                      delivery across the Department


           The TSA CIO’s development of a well-aligned, up-to-date strategic plan that
           defines a clear vision and direction positions TSA OIT to provide effective support
           for TSA’s transportation security mission.

           Systems Engineering Life Cycle

           DHS Acquisition Instruction/Guidebook #102-01-001, Appendix B, requires
           agencies to follow a SELC process. 6 The purpose of the DHS SELC is to establish a
           standard system life cycle framework across DHS agencies and to ensure that
           DHS IT capabilities are delivered efficiently and effectively.

           The TSA CIO implemented the DHS SELC process in compliance with
           departmental guidance. OIT maintains an online site to guide TSA project


   6
    DHS Acquisition Instruction/Guidebook #102-01-001, Appendix B, Interim Version 2.0, September 21,
   2010.

www.oig.dhs.gov                                                   8                                              OIG-13-101
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security



           managers and participants in complying with the DHS SELC. This online tool
           enables users to tailor the SELC to meet their project needs and contains
           templates and guidance to aid users in the development of documents for each
           of the nine stages of the SELC. Figure 2 shows the nine stages of the SELC.




                                      Figure 2. TSA SELC Phases

           TSA staff initiate the SELC process by submitting a project request to OIT. An OIT
           Customer Relations Manager works with the staff to match their business
           requirements with existing IT products and services and to initiate project
           requests by completing a project authorization document.

           The OIT Business Technology Council reviews projects to ensure that all IT
           projects align to the TSA strategic plan, TSA initiatives and goals, and TSA’s
           enterprise architecture. The OIT General Managers for the IT Strategy and
           Innovation Office and the IT Operations Office co-chair the council, which meets
           biweekly, and office division directors serve as members. After the council
           approves a project, OIT assigns a project manager, who guides staff through the
           next steps, including defining requirements and creating required SELC
           documents. For example, a Mission Needs Statement, which states why the
           investment needs to be undertaken, is required for all IT projects.

           The CIO’s implementation of the SELC process should help TSA ensure that its IT
           investments will support TSA and DHS strategic goals.

           IT Acquisition Review

           DHS MD 0007.1 requires IT acquisitions valued at $2.5 million or greater to be
           submitted to the DHS CIO for review. This directive also requires component
           CIOs to implement an ITAR process for IT acquisitions below $2.5 million. ITAR is
           required before the award of an IT procurement so that acquisitions are aligned
           with IT policy, standards, objectives, and goals across DHS.


www.oig.dhs.gov                                9                                       OIG-13-101
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security



           The TSA CIO has implemented an ITAR process that aligns with DHS policies. 7
           TSA customers begin the ITAR process by submitting a complete procurement
           request package with supporting documentation, such as a statement of work,
           an independent government cost estimate, and market research, to the ITAR
           “TSAITBUY” team. The ITAR TSAITBUY team sends complete procurement
           request packages to the appropriate review groups to ensure that the packages
           comply with TSA acquisition guidelines. Specifically, each IT procurement
           package must go through enterprise architecture, accessibility, investment level,
           infrastructure, information security, and records management reviews. For
           example, the enterprise architecture group determines if the request is part of a
           program that has been reviewed by the enterprise architecture board, if the
           customer has submitted a list of hardware and software products included in the
           request, if the requested products are listed in the Department’s approved
           technology list, and if the request is part of an upgrade to an enterprise service,
           among other items. The information security group determines, for example, if
           there are requests for hardware or software that will hold or handle DHS
           sensitive information, and if so, if the package includes a clause that indicates
           the request will meet specific security certifications and compliance standards.

           Once a procurement request has been approved, requests totaling $2.5 million
           or more are submitted to the DHS ITAR team for review with subsequent
           approval by the DHS CIO. The TSA CIO approves requests for less than $2.5
           million. In FY 2012, 74 requests were submitted to the DHS CIO, and 698
           requests were submitted through the TSA ITAR process.

           Enterprise Architecture

           The Clinger-Cohen Act of 1996, as amended, and OMB circulars mandate the
           establishment and use of an enterprise architecture to guide and direct
           government investments from inception through retirement. 8 9 In addition,
           OMB Memorandum M-11-29 states that CIOs must use an enterprise
           architecture to consolidate duplicative investments and applications. 10 An

   7
     TSA Management Directive 300.15, Information Technology Acquisition Review, signed January 6, 2012,

   provides TSA policy and procedures for the ITAR process.

   8
     Public Law No. 104-106, Division E, February 10, 1996. The law, initially titled the Information

   Technology Management Reform Act of 1996, was subsequently renamed the Clinger-Cohen Act of 1996 

   in Public Law No. 104-208, September 30, 1996.

   9
     OMB Circular A-130, Revised, Management of Federal Information Resources, November 28, 2000; and 

   OMB Circular A-11, Revised, Preparation, Submission, and Execution of the Budget, August 3, 2012.

   10
      OMB M-11-29, Chief Information Officer Authorities, August 8, 2011.


www.oig.dhs.gov                                     10                                            OIG-13-101
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security



           enterprise architecture describes the current architecture, target architecture,
           and transition strategy for attaining the target goals and objectives. An
           enterprise architecture enables leadership to prioritize available resources to
           support mission functions, ensures that mission requirements drive technology
           investments, and identifies current capabilities and performance gaps and
           projected future gaps.

           The TSA CIO developed an enterprise architecture to align with the Department’s
           architecture and guide TSA’s IT environment. From 2011 through 2012, TSA
           provided the Department with a self-assessment status report each quarter on
           its enterprise architecture program. In this report, TSA rated its progress against
           the Government Accountability Office (GAO) Enterprise Architecture
           Management Maturity Framework. 11 In March 2011, TSA identified its
           enterprise architecture maturity at stage zero of the six stages of the GAO
           Enterprise Architecture Management Maturity Framework, meaning TSA was
           creating enterprise architecture awareness. In its last FY 2012 status report, TSA
           rated its progress at stage four maturity, which means that TSA has developed
           an approved version of its enterprise architecture that is used for targeted
           results, such as guiding investment decisions.

           In FY 2012, the Homeland Security Systems Engineering and Development
           Institute, the Department’s federally funded research and development center,
           began conducting independent, objective reviews of the quarterly status reports
           of select DHS components. Since the last quarter of FY 2011, TSA had each of its
           self-assessed enterprise architecture maturity scores independently reviewed
           and evaluated. As of the last quarter of FY 2012, the institute independently
           identified TSA’s enterprise architecture program at stage four maturity. Figure 3
           shows TSA’s enterprise architecture maturity within the stages of the Enterprise
           Architecture Management Maturity Framework.




   11
     GAO-10-846G, A Framework for Assessing and Improving Enterprise Architecture Management (Version
   2.0), August 2010.

www.oig.dhs.gov                                    11                                          OIG-13-101
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security




            Figure 3. Stages of Enterprise Architecture Management Maturity Framework
                              with TSA Enterprise Architecture Maturity

           ITAR Process Implementation Limited

           Although the TSA CIO implemented an ITAR process, not all IT procurements
           have gone through the process. For example, the Explosives Detection System
           (EDS) and the Advanced Imaging Technology (AIT) procurements did not go
           through the ITAR process. These systems did not go through the review
           processes because the responsible program managers did not categorize them
           as IT procurements. As a result, there was little assurance that all IT investments
           were aligned with the CIO’s strategy or TSA’s future IT mission needs. Limited
           ITAR implementation also hinders the CIO’s ability to manage TSA’s IT
           environment, which increases the risk of security issues and hampers cost-saving
           efforts.

           Explosives Detection Systems
           EDS units capture images and scan checked baggage to analyze the contents and
           determine whether explosive threats might be present. In 2009, TSA procured
           77 EDS units as part of a contract amounting to approximately $29.9 million. As
           of October 2010, TSA had 2,297 EDS machines, 1,938 of which were deployed at
           airports in the United States. EDS units contain IT hardware and software
           components that display, process, and transmit data.

           Advanced Imaging Technology
           AIT is used to screen passengers to detect weapons, explosives, and other
           threats to protect the traveling public. TSA uses two types of AIT, millimeter


www.oig.dhs.gov                                12                                       OIG-13-101
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security



           wave imaging technology and backscatter technology, to screen passengers for
           both metallic and non-metallic threats. Both types of AIT units contain IT
           hardware and software components that display, process, and transmit data.
           Millimeter wave imaging technology detects threats by displaying a generic
           outline of a person on a monitor attached to the unit highlighting any areas that
           may require additional screening. If no anomalies are detected, an “OK” appears
           on the screen with no outline. Backscatter technology projects an X-ray beam
           over the body surface and creates an image, transmits this image to a remote
           location, and displays it on a monitor for a TSA officer to review. The technology
           has a privacy filter that blurs the image so that it resembles a chalk etching. As
           of December 2012, there were more than 800 imaging technology devices at
           approximately 200 airports, and TSA had spent approximately $140 million on
           AIT equipment.

           These IT systems and equipment did not go through the ITAR or enterprise
           architecture review processes because TSA did not designate all procurements
           with IT components as IT procurements. Program offices can bypass the ITAR
           process by identifying a procurement as non-IT. According to TSA’s acquisition
           review process procedures, the program official making the procurement
           request determines if any of the proposed procurement requirements contain IT
           components. 12 If the program official determines that the procurement does n
           ot contain IT, the procurement may not be submitted for ITAR review to ensure
           that it meets enterprise architecture, application architecture, software
           management, and security and accessibility requirements.

           The Federal Government, DHS, and TSA all have defined IT to include IT
           equipment or systems that display, manipulate, or transmit data. 13 Although
           TSA guidance is aligned with the Department’s and Federal guidance on the
           definition of IT, the TSA CIO has authority only over programs that TSA program
           managers have defined as IT. Even though security technology equipment, such
           as EDS and AIT, display, manipulate, and transmit data, TSA designated as IT only
           the portion of the EDS and AIT technologies that connects to the TSA network.

           Several TSA officials with whom we met told us that designating programs as “IT”
           created significant workload for program managers. IT procurements must go


   12
      TSA OIT Acquisition Review Process Standard Operating Procedure, January 6, 2009, and TSA
   Management Directive 300.15, Information Technology Acquisition Review, signed January 6, 2012.
   13
      The Federal, Department, and TSA definitions of IT are shown in appendix C.

www.oig.dhs.gov                                     13                                               OIG-13-101
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security



           through more reviews than those designated as non-IT procurements; therefore,
           IT procurements typically take longer to go through the acquisition process.

           However, the ITAR process enables the CIO to align IT acquisitions with TSA IT
           policies, standards, objectives, and goals. ITAR also helps the CIO validate TSA’s
           alignment with the DHS enterprise architecture and ensure compliance with
           security and accessibility requirements. Information Assurance and Cyber
           Security Division staff have had to modify contracts to include appropriate
           security language and clauses because these security technologies did not
           undergo the standard ITAR process. IT acquisitions that do not go through the
           ITAR process are not subject to alignment reviews and may increase costs for
           operations and maintenance, limit opportunities for system integration, and
           create a risk to TSA’s IT environment.

           Recommendations

           We recommend that the Deputy Administrator, Transportation Security
           Administration:

           Recommendation #1:

           Direct all TSA program offices to apply the Department’s definition of IT for all
           acquisitions.

           Recommendation #2:

           Develop and implement a process to ensure that all IT acquisitions, including
           passenger and baggage screening equipment, go through IT Acquisition Review
           and receive enterprise architecture, security, and privacy reviews.

           Management Comments and OIG Analysis

           We obtained written comments on a draft of this report from the Administrator,
           Transportation Security Administration. We have included a copy of the
           comments in their entirety in appendix B.

           In the comments, the Administrator concurred with our recommendations and
           provided details on steps being taken to address specific findings and



www.oig.dhs.gov                                 14                                       OIG-13-101
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security



           recommendations in the report. We have reviewed management’s comments
           and provided an evaluation of the issues outlined in the comments below.

           In response to recommendation one, the Administrator concurred and stated
           that TSA has codified the definition of IT in TSA Management Directive 300.15,
           Information Technology Acquisition Review. Further, the Administrator stated
           that there should be a mechanism for determining the application of the
           definition of IT in program designations. To adjudicate the application of the
           definition of IT in program designation, TSA included a process in its draft
           Management Directive 1400.20, IT Governance. That approval process involves
           the CIO, the Chief Procurement Officer Executive/Component Acquisition
           Executive, and the Program Office in the IT designation process. We recognize
           the inclusion of the process in the draft Management Directive 1400.20 as a
           positive step toward addressing this recommendation, and look forward to
           learning more about continued progress. This recommendation will remain
           open pending evidence of further progress in this regard.

           In response to recommendation two, the Administrator concurred and stated
           that IT acquisitions, when determined to be designated as IT, will follow the DHS
           ITAR guidelines and process. However, the Administrator stated that TSA takes
           exception to the presumption that the Electronic Baggage Screening Program
           and Passenger Screening Program are IT programs. We disagree with this
           assertion. As stated in our report, baggage and passenger security screening
           equipment displays, manipulates, and transmits data, which meets the Federal
           definition to be designated as information technology. Although we are
           encouraged by TSA’s actions to establish a process as described in
           recommendation one to evaluate the program for IT designation, we expect this
           evaluation to include all IT acquisitions, including security screening equipment.
           This recommendation will remain open pending evidence of further progress in
           this regard.




www.oig.dhs.gov                                15                                      OIG-13-101
                                   OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security



              Support of Mission Needs

              The TSA CIO faces challenges in ensuring that the IT environment fully supports
              TSA’s mission needs. Specifically, TSA’s IT systems do not provide the full
              functionality needed to support its mission. For example, some systems did not
              provide the reporting functions needed, and other systems were not compatible
              or were not integrated. The limited IT functionality experienced in the field is
              due to challenges with TSA’s requirements gathering process. As a result, staff
              created manual workarounds or developed local systems to accomplish their
              mission. In addition, IT specialist roles were not well defined or communicated,
              and the number of IT support staff was not sufficient to support users at certain
              field sites. Some field sites detailed employees from operational areas to fill in
              gaps in IT support, reducing the number of staff available to serve at security
              checkpoints.

              IT Functionality

              DHS MD 0007.1 states that the component CIO is responsible for timely delivery
              of mission IT services in direct support of component mission, goals, objectives,
              and programs. In addition, agencies are required to acquire, manage, and use IT
              to improve mission performance. 14

              TSA’s IT systems do not fully provide the functionality needed to support its
              mission. Specifically, personnel with whom we spoke identified the following
              instances in which the systems they used were not sufficient to meet their
              needs:

                  •	 The Electronic Time, Attendance, and Scheduling (eTAS) system that TSA
                     provided for scheduling did not help staff effectively plan for and
                     schedule the numbers and types of staff needed to screen passengers
                     and baggage. Being able to schedule resources efficiently at an airport is
                     important because of the varying amounts of passenger traffic
                     throughout the year and TSA’s specific requirements regarding the types
                     of security officers needed at security gates. For example, managers at
                     one airport must schedule 1,300 employees at 22 work locations and
                     ensure that the employees at each checkpoint meet appropriate ratios
                     for gender, part-time staff, and full-time staff. In addition, managers


   14
        Public Law 104-13, Paperwork Reduction Act of 1995, May 22, 1995.

www.oig.dhs.gov                                        16	                                OIG-13-101
                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security



                     need to adjust schedules based on peaks in airport traffic, such as
                     holidays. According to users, eTAS reports did not include the necessary
                     data and were not timely. In addition, eTAS was not interoperable with
                     other systems. Users at one site reported that data did not transfer
                     properly between eTAS and an enterprise timekeeping system. Staff had
                     to be taken off of security checkpoints to adjust manually for the
                     differences between the two systems in the number of hours staff
                     worked. Staff at some sites reported that there was no scheduling
                     system with the ability to provide real-time information, such as an
                     employee headcount, and that they had to manipulate three reports
                     generated by enterprise-wide systems in order to obtain necessary
                     operational information such as the hours worked by an employee.

                  •	 Users at some airports relied on a business tool that allowed personnel to
                     generate timely, thorough performance measures, metrics, and
                     operational reports, which TSA uses to track and analyze operational
                     data. However, this tool was not compatible with the operating system
                     on the new computers installed as part of the computer replacement
                     program. The staff at these locations switched back and forth between
                     an older operating system to use the reporting tool and the newer
                     operating system for other activities. The Office of Security Operations
                     told us that it had purchased a newer version of the tool that is
                     compatible with the new computers, but this new tool had not been
                     installed at the time of our fieldwork.

                  •	 Reports generated from the TSA system for payroll management did not
                     contain up-to-date information. Personnel at one airport stated that it
                     could take 2 to 4 weeks for a new hire to show up in this system.
                     Managers responsible for TSA field operations reported that they could
                     not effectively carry out their mission with this outdated information.

                  •	 TSA systems used for incident reporting were not integrated. When an
                     incident, such as a theft or a detected threat, occurred, TSA staff
                     documented the incident and reported it to various offices at
                     headquarters, such as the Transportation Security Operations Center and
                     the Office of Security Operations. Field personnel had to enter manually
                     the same or similar incident report information into three separate
                     systems—the Security Incident Reporting Tool, the Airport Information



www.oig.dhs.gov                                  17	                                     OIG-13-101
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security



                  Management System, and the Performance and Results Information
                  System.

           TSA’s systems do not provide the needed functionality because of challenges
           with the requirements gathering process. OIT Field Relations Managers are
           responsible for ensuring that field stakeholders’ critical IT requirements are
           understood, prioritized, implemented, and supported. OIT Customer Relations
           Managers are responsible for assisting TSA operational components with
           documenting business requirements for IT products and services and
           shepherding IT project requests through TSA’s IT governance process. TSA OIT
           senior managers, however, reported concerns about the lack of requirements
           gathering from the field. In addition, an internal TSA report from November
           2012 stated that there did not appear to be an institutionally supported forum in
           which field requirements were articulated, shared, widely vetted, and
           synthesized into a common set of needs that would serve all airports. Field staff
           told us that their concerns regarding requirements were not being addressed.
           Some staff reported that they stopped sharing concerns, and instead developed
           manual workarounds.

           In addition to developing manual workarounds, TSA field personnel at some sites
           developed systems to meet their mission needs and objectives. For example, at
           one airport, staff created a system called the Central Employee Database, which
           consolidated data from a number of TSA IT systems into a single system. This
           local system allowed end-users to generate real-time executive status reports, as
           well as daily, weekly, monthly, and annual summaries. OIT shut down this
           system in 2012 because of security concerns. At another airport, staff created a
           system to meet their management reporting and scheduling needs. The system
           allowed them to enter the information they needed into one central system and
           export it into reports seamlessly—a function not provided by the TSA scheduling
           system. Users told us that this system was user-friendly. The system included
           multiple modules for scheduling, tracking training, and other management tools,
           and users’ access level was adjusted based on their roles.

           Locally developed systems increase security and privacy risks, particularly if
           these systems have not been reviewed or authorized by OIT headquarters. If
           systems contain personally identifiable information and have not undergone the
           appropriate compliance, such as a privacy threshold analysis or privacy impact
           assessment, vulnerabilities may exist that may put this information at risk and



www.oig.dhs.gov                               18                                      OIG-13-101
                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security



            lead to violations of the Privacy Act. 15 Further, since a locally developed system
            may not be reviewed by TSA system security personnel, its use could
            compromise network security through malicious network intrusions. In addition,
            when field staff must undertake manual processes to obtain the information
            they need, they are less able to meet critical mission objectives in a timely and
            efficient manner. For example, when screeners have to spend time manually
            entering data into systems or manipulating data for the information they need,
            there are fewer personnel available to serve at security checkpoints.

            IT Support

            IT specialist roles are not well defined or communicated, and the number of IT
            support staff is not sufficient to support users at certain field sites. IT specialists
            are contracted support staff who provide user, hardware, and communications
            support at an airport or designated field site. Not all managers responsible for
            oversight of IT specialists and key decision-makers were fully aware of IT
            specialists’ roles and responsibilities. According to managers in the field, under
            the IT Infrastructure Program contract, IT specialists reported directly to the
            contractor, but their day-to-day activities on-site typically were overseen by a
            Federal employee IT point of contact. Some Federal IT points of contact with
            whom we met, however, were not able to access the contract or did not know
            the roles or responsibilities of IT specialists. As a result, these managers could
            not make sure they were using the IT specialists effectively.

            Some IT specialists also were not fully aware of their roles and responsibilities.
            One IT specialist told us that IT specialists frequently strayed from the specifics
            of the contract, and that the IT specialist’s role was different at different TSA
            field locations, despite roles and responsibilities being universal and specified
            under a single, enterprise-wide contract. In addition, some TSA staff were
            unaware of the roles of IT specialists, and therefore their expectations of the IT
            specialists sometimes differed from officially assigned roles.

            Additionally, the number of IT support staff was not sufficient to support users at
            certain field sites. At the time of our fieldwork, TSA employed 89 IT specialists,


   15
     A privacy threshold analysis is performed to determine if additional privacy compliance documentation
   is required, such as a privacy impact assessment. A privacy impact assessment documents what
   personally identifiable information the Department is collecting, why it is being collected, and how it will
   be used, shared, accessed, and stored.

www.oig.dhs.gov                                         19                                               OIG-13-101
                                    OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security



            who were assigned to Category X and Category I airports. 16 The ratio of IT
            specialists to the number of users supported, however, varied significantly at
            different locations. For example, at Chicago Midway International Airport, one
            IT specialist supported approximately 200 users. At Chicago O’Hare International
            Airport, one IT specialist supported approximately 2,200 users. Furthermore, IT
            specialists may also have to travel to smaller airports. Users with whom we met
            sometimes had to wait several hours or more for IT support for a time-sensitive,
            mission-critical, or otherwise urgent task, even when an IT specialist was on site,
            and staff sometimes waited several days or a week for help with their requests
            for IT support.

            To fill gaps in IT support staff, several field sites detailed employees from other
            operational areas. Staff detailed to help IT support in TSA field sites were
            frequently security officers or screeners, not IT specialists. In their IT roles, these
            security officers or other operational staff members provided support to users
            by fixing computers, setting up networks, and developing and administering local
            IT systems. While serving in an IT support capacity, these operational staff were
            no longer performing their originally assigned security or screening duties. In
            addition, these staff may not be qualified or trained to serve in IT support
            functions. By reducing the number of available personnel for security
            checkpoints, as well as placing staff in positions that require a specific technical
            training, TSA may hinder its ability to carry out its transportation security
            mission.

            Recommendations

            We recommend that the Deputy Administrator, Transportation Security
            Administration, direct the Chief Information Officer, Transportation Security
            Administration, to:

            Recommendation #3:

            Develop and implement a process to capture IT requirements in the field.


   16
     TSA classifies the Nation’s airports into one of five categories (X, I, II, III, and IV) based on various factors
   such as the number of takeoffs and landings annually, the extent of passenger screening at the airport,
   and other security considerations. In general, Category X airports have the largest number of passenger
   boardings, and Category IV airports have the smallest.



www.oig.dhs.gov                                            20                                                 OIG-13-101
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security



           Recommendation #4:

           Communicate the IT specialist role, as contractually defined, to both IT
           specialists and to the user community.

           Recommendation #5:

           Develop and implement a process to provide sufficient IT support, such as an
           appropriate number of IT specialists, in airports and operational sites in the field.

           Management Comments and OIG Analysis

           The Administrator, Transportation Security Administration, concurred with our
           recommendations and provided details on steps being taken to address specific
           findings and recommendations in the report. We have reviewed management’s
           comments and provided an evaluation of the issues outlined in the comments
           below.

           In response to recommendation three, the Administrator concurred and stated
           that the TSA OIT and Office of Security Operations will jointly produce
           procedures to improve the requirements definition and development process.
           The Administrator also provided details about initiatives underway for
           identifying requirements in the field, such as the implementation of a
           documented process for all programmatic requests to support TSA customers in
           the field and the Deputy CIO’s regularly scheduled bi-weekly site visits to various
           airports as another means for identifying requirements in the field. We
           recognize these actions as positive steps toward addressing this
           recommendation, and look forward to learning more about progress in
           improving the requirements definition and development process. This
           recommendation will remain open pending evidence of further progress in this
           regard.

           In response to recommendation four, the Administrator concurred with the
           recommendation and stated that TSA has already taken action to communicate
           the IT specialist role, by providing a nonproprietary synopsis of IT support duties
           to new Federal Security Directors, as well as Federal Security Directors and
           senior local staff upon request. Further, the Administrator stated that a
           nonproprietary synopsis of those duties will be posted on the OIT/End User
           Services/IT Field Services Branch SharePoint site, to which all IT Specialists and


www.oig.dhs.gov                                 21                                        OIG-13-101
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security



           locally assigned IT points of contacts have access. We recognize these actions as
           positive steps toward addressing this recommendation, and look forward to
           learning more about progress made toward communicating the IT specialist role,
           as contractually defined, to both IT specialists and the user community. This
           recommendation will remain open pending evidence of further progress in this
           regard.

           In response to recommendation five, the Administrator concurred with the
           recommendation. The Administrator said that primary IT support for Category X
           and I airports is provided by an on-site IT Specialist, who also provides secondary
           support to spokes (Category II-IV airports) of their hub airport and may assist at
           other sites; primary support for Category II-IV airports is provided by dispatched
           Field Equipment Service Support technicians. The Administrator said that the
           field support is dependent upon available funding for these support services, and
           that the current service model is the most efficient and effective employment of
           IT resources in support of all category airports. We recognize that field support
           is dependent upon available funding, and look forward to learning about
           progress made toward addressing this recommendation. This recommendation
           will remain open pending evidence of further progress in this regard.




www.oig.dhs.gov                                22                                       OIG-13-101
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security



   Appendix A
   Objectives, Scope, and Methodology
   The DHS Office of Inspector General was established by the Homeland Security Act of
   2002 (Public Law 107-296) by amendment to the Inspector General Act of 1978. This is
   one of a series of audit, inspection, and special reports prepared as part of our oversight
   responsibilities to promote economy, efficiency, and effectiveness within the
   Department.

   As part of our ongoing responsibilities to assess the efficiency, effectiveness, and
   economy of departmental programs and operations, we conducted an audit to
   determine TSA’s progress in establishing key IT management capabilities to support
   mission needs.

   We researched and reviewed Federal laws, management directives, and agency plans
   and strategies related to IT systems, management, and governance. We obtained
   published reports, documents, and news articles regarding TSA’s management and use
   of IT. Additionally, we reviewed recent GAO and DHS OIG reports to identify prior
   findings and recommendations. We used this information to establish a data collection
   approach that consisted of focused information-gathering meetings, documentation
   analysis, site visits, and system demonstrations to accomplish our audit objectives.

   We held meetings and teleconferences with TSA staff at headquarters and field offices.
   Collectively, we met with more than 120 individuals, such as headquarters officials, field
   office staff, and system users, to learn about TSA’s IT functions, processes, and
   capabilities. At headquarters, we met with TSA OIT officials including the CIO, Deputy
   CIO, General Managers, division directors, branch chiefs, and program managers to
   discuss their roles and responsibilities related to TSA IT management. We also met with
   staff from OIT offices and divisions, including IT Strategy and Innovation, Mission
   Engagement, Strategy and Enterprise Management, Enterprise Architecture, IT
   Operations, End User Services, Applications Development, Business Management Office,
   and FAMS IT.

   At TSA field locations, we met with Federal Security Directors, Assistant Federal Security
   Directors, and their staff; coordination center managers; training managers;
   administrative officers; property administrators; transportation security managers;
   transportation security officers; and other system users to understand IT development
   practices, user requirements, and system use in the field. We discussed the current IT
   environment and the extent to which it supports mission needs, local IT development

www.oig.dhs.gov                                23                                       OIG-13-101
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security



   practices, and user involvement and communication with headquarters. We collected
   supporting documents about TSA’s IT environment, IT management functions, current
   initiatives, and improvement initiatives.

   We conducted audit fieldwork from September 2012 to January 2013 at TSA
   headquarters offices in Arlington, Virginia. We conducted additional audit fieldwork at
   TSA field locations.

   We conducted this performance audit between September 2012 and March 2013
   pursuant to the Inspector General Act of 1978, as amended, and according to generally
   accepted government auditing standards. Those standards require that we plan and
   perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
   basis for our findings and conclusions based upon our audit objectives. We believe that
   the evidence obtained provides a reasonable basis for our findings and conclusions
   based upon our audit objectives.

   The principal OIG points of contact for this audit are Frank Deffer, Assistant Inspector
   General for Information Technology Audits, and Richard Harsche, Director of
   Information Management. Major OIG contributors to the audit are identified in
   appendix D.




www.oig.dhs.gov                                24                                       OIG-13-101
                   OFFICE OF INSPECTOR GENERAL
                     Department of Homeland Security



   Appendix B
   Management Comments to the Draft Report




www.oig.dhs.gov                  25                    OIG-13-101
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security



                                                                                                        2

       Discussion

       While TSA concurs with the OIG's recommendations, there is one specific area within the report
       on which we would like to comment.

      TSA accepts the recommendation that IT acquisitions, when designated as IT, will follow the
      DHS IT acquisition review (ITAR) guidelines and process. TSA does not agree with the OIG's
      recommendation that presumes the Electronic Baggage Screening Program (EBSP) and the
      Passenger Screening Program (PSP) are IT programs by the phrase "including passenger and
      baggage screening equipment." TSA is establishing a process through our draft Management
      Directive 1400.20, rr Governance in which the Chief Information Officer (CIO), the Chief
      Procurement Officer Executive/Component Acquisition Executive, and the Program Office
      jointly evaluate the program for IT designation and apply necessary IJ governance.

      The recommendations highlighted in OIG's report will help TSA continue improving and
      implementing effective oversight of Agency investments. TSA concurs with the
      recommendations and has already taken steps to address them. What follows are TSA's specific
      responses to the recommendations contained in the OIG report.

      Recommendation #1: Direct all TSA program offices to apply the Department's definition of
      IT for all acquisitions.

      TSA concurs. TSA recognizes the need to apply the Department's definition ofiT and has
      codified that definition in TSA Management Directive 300.15, Information Technology
      Acquisition Review. TSA's position is that while IT is an integral part of almost every program
      we have, there should be a mechanism for determining the application of the definition in
      program designations. That characteristic of IT is included in TSA's definition of IT in the
      Management Directive. To adjudicate the application of the definition ofiT in program
      designation, TSA has included a process in our draft Management Directive 1400.20, IT
      Governance. That approval process involves the CIO, the Chief Procurement Officer
      Executivc1Component Acquisition Executive, and the Program Office in the IT designation
      process.

      Recommendation #2: Develop and implement a process to ensure that all·IT acquisitions,
      including passenger and baggage screening equipment. go through IT Acquisition Review and
      receive enterprise architecture, security, and privacy reviews.

      TSA concurs. TSA accepts the recommendation that IT acquisitions, when detennined to be
      designated as IT, will follow the DHS ITAR guidelines and process. The Agency takes
      exception to the presumption that EBSP and PSP are IT programs. As described in
      Recommendation # 1, TSA is establishing a process through our draft Management Directive
      1400.20, IT Governance in which the CIO, the Chief Procurement Officer Executivc1Component
      Acquisition Executive, and the Program Office jointly evaluate the program for IT designation.
      TSA has a well-established ITAR process that has been defined in TSA Management Directive
      300.15, Information Technology Acquisillon Review.




www.oig.dhs.gov                                       26                                                OIG-13-101
                    n
                    a            OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security



                                                                                                          3

       Recommendation #3: Develop and implement a process to capture IT requirements in the field.

       TSA concurs. TSA has Office of Information Technology (OIT) Field Regional Managers
       (FRM) assigned to support aU airports managed by the Office of Security Operations (OSO).
       These FRM.s have been in place since TSA was stood up. Each of the FRMs is responsible for
       supporting all IT-related requests within each of their respective areas of responsibility. TSA
       acknowledged that the process could be refined weU over a year ago, so the implementation of a
       documented process for all programmatic requests was established to support our customers in
       the field. This process allows OSO leadership to review these requests to determine if they are in
       fact a priority for their organization and if the funding is available to support their request. In
       addition, in an effort to collaborate with the field, the TSA Deputy CIO established a regularly
       scheduled bi-weekly site visit schedule to various airports throughout the country as another
       means for identifying requirements in the field. The TSA OIT and OSO will jointly produce
       procedures to improve the requirements definition and development process.

       Recommendation #4: Communicate the IT specialist role, as contractually defined, to both lT
       specialists and to the user community.

       TSA concurs. IT support to the field sites is a contractual requirement under the current
       infrastructure support contract. A nonproprietary synopsis of those duties is captured in a
       handout that is provided to all newly assigned Federal Security Directors (FSD) as well as all
       FSD and senior local staff on request. In addition, the synopsis will soon be posted oo the
       OIT/End User Services/IT Field Services Branch SharePoint site. All IT Specia1islS and locally
       assigned IT points of contacts (POC) have access to this site. Weekly calls are conducted with
       TSA's FRMs, the infrastructure support contractor's Customer Service Regional Managers
       (CSRM), on-site IT Specialists, and local IT POC. These recurring conference calls provide a
       forum to address both routine tasks and emerging projects and the responsibilities associated
       with those tasks, if clarification is needed.

       Recommendation #5: Develop and implement a process to provide sufficient IT support, such
       as an appropriate number ofiT specialists, in airports and operational sites in the field.

       TSA concurs. Primary IT support for category X and I airports is provided by an on-site IT
       Specialist. These IT Specialists also provide secondary support to the spokes (category II - IV
       airports) of their hub airport. Meanwhile, they may also assist with special projects at other sites
       not associated with their hub location, when required. Field Equipment Service Support (FESS)
       technicians may also be used to provide additional support to category X and I airports when
       workloads a.ndlor special projects require additional support to meet particularly demanding
       operational requirements within the contract service level agreements (SLA).

       Primary support for Category II -IV airports is provided by dispatched FESS technicians. These
       FESS technicians provide timely service from key locations across the country to airports within
       their prescribed service areas. Contractual SLA prescribe response times and levels of service
       for FESS support. These service levels and response times apply equally to all airports, category
       X through IV. The field support is also dependent upon available funding for these support
       services. The current service model is the most efficient and effective employment ofJT
       resources in support of all category airports.
www.oig.dhs.gov                                       27                                              OIG-13-101
                     OFFICE OF INSPECTOR GENERAL
                       Department of Homeland Security



   Appendix C
   Definition of Information Technology




www.oig.dhs.gov                    28                    OIG-13-101
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security



   Appendix D
   Major Contributors to This Report

   Richard Harsche, Division Director
   Elizabeth Argeris, Audit Manager
   Swati Nijhawan, Auditor-in-Charge
   Daniel McGrath, Auditor
   Raj Patel, Auditor
   Joshua Wilshere, Referencer




www.oig.dhs.gov                            29                    OIG-13-101
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security



   Appendix E
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Administrator, TSA
   Deputy Administrator, TSA
   Chief Information Officer, TSA
   Liaison, TSA
   Director of Local Affairs, Office of Intergovernmental Affairs
   Acting Chief Privacy Officer

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                30                          OIG-13-101
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
